   United States Department of Agriculture
   Office of Inspector General




Executive Order 13520, Reducing
Improper Payments — Fiscal Year 2011
High-Dollar Report Review




                                             Audit Report 50024-0002-11
                                             September 2012
                           United States Department of Agriculture
                                   Office of Inspector General
                                    Washington, D.C. 20250




DATE:          September 28, 2012

AUDIT
NUMBER:        50024-0002-11

TO:            Jon M. Holladay
               Deputy Chief Financial Officer
               Office of the Chief Financial Officer

ATTN:          Kathleen A. Donaldson
               Audit Liaison Officer
               Planning and Accountability Division

FROM:          Gil H. Harden
               Assistant Inspector General
                 for Audit

SUBJECT:       Executive Order 13520, Reducing Improper Payments—Fiscal Year 2011
               High-Dollar Report Review


This report presents the results of the subject audit. Your written response to the official draft
report, dated September 28, 2012, is included in its entirety at the end of the report. Excerpts
from your response and the Office of Inspector General’s position are incorporated in the
relevant sections of the report.

Based on your response, we accept management decision for all recommendations in the report,
and no further response to us is necessary. In accordance with Departmental Regulation 1720-1,
all final actions need to be completed within 1 year of each management decision to preclude
them being listed in the Department’s annual Performance and Accountability Report. Please
follow your internal agency procedures in forwarding final action correspondence to the Office
of the Chief Financial Officer, Director, Planning and Accountability Division.

We appreciate the courtesies and cooperation extended to us by members of your staff during our
audit fieldwork and subsequent discussions.
Table of Contents

Executive Summary .................................................................................................1
Background and Objectives ....................................................................................3
Section 1: Compliance with High-Dollar Overpayments Reporting
Requirements ............................................................................................................4
   Finding 1: Further Actions Are Needed To Identify and Report High-
   Dollar Overpayments ...........................................................................................4
         Recommendation 1 ........................................................................................8
         Recommendation 2 ........................................................................................8
Scope and Methodology .........................................................................................10
Abbreviations .........................................................................................................11
Exhibit A: USDA's 16 Programs Susceptible to Significant Improper
Payments .................................................................................................................12
Exhibit B: Summary of USDA's Reported Fiscal Year 2011 High-Dollar
Overpayments.........................................................................................................13
Agency’s Response .................................................................................................15
Executive Order 13520, Reducing Improper Payments,
Fiscal Year 2011 High-Dollar Report Review – 50024-0002-11

Executive Summary

To intensify efforts to eliminate payment error, waste, fraud, and abuse in Federal programs, in
2009 the President issued Executive Order 13520 (Executive Order), Reducing Improper
Payments, and the Office of Management and Budget (OMB) issued guidance for reporting high-
dollar overpayments. The Executive Order requires Federal agencies to submit quarterly reports
on any high-dollar overpayments identified in their high-risk programs to their respective Office
of Inspector General (OIG) and the Council of the Inspectors General on Integrity and
Efficiency.1 Quarterly reports are to include information about the highest improper payments
and information on agency actions and strategies to recover and prevent the overpayments.
Overall, in fiscal year 2011, the Department of Agriculture (USDA) reported overpayments
totaling approximately $11.7 million. The Executive Order requires OIG to review USDA’s
quarterly high-dollar overpayments reports and make recommendations, as necessary, to
agencies’ plans to recover and prevent high-dollar overpayments.

Through this second annual review of USDA’s compliance with this order, we found that USDA
made significant improvements in identifying high-dollar overpayments within its 16 high-risk
programs, which increased its reporting by more than 500 percent since the previous fiscal year.
However, we noted that the component agencies’ submissions to the Department did not always
completely and accurately account for high-dollar overpayments and corrective actions, and that
the Department did not submit these reports until 23 to 99 days after the required due date. Each
of the reports either omitted reportable overpayments or included incorrect information on
overpayments, or both. For example, one component agency did not report approximately
$1.7 million in cumulative overpayments to an entity. Reporting errors occurred because
component agencies did not always interpret and apply available guidance correctly or have
formal processes in place for identifying and reporting high-dollar overpayments. Without
complete, accurate, and timely reporting, neither the Department nor OMB can measure the
effectiveness of USDA component agencies’ actions or strategies to eliminate the errors causing
high-dollar overpayments.

During our review, component agencies and the Department implemented some corrective
actions associated with our identified deficiencies. For example, in September 2011, USDA’s
Office of the Chief Financial Officer (OCFO) issued Departmental guidance to component
agencies with further clarification regarding OMB’s criteria for identifying reportable high-
dollar overpayments, including: instruction on identifying cumulative overpayments for
reporting, a specific formula for calculating the overpayment percentage, and specific guidance
on reporting recovered overpayments. However, continued actions are needed to further
improve the Department’s compliance with the Executive Order. Therefore, we are
recommending that OCFO provide additional oversight to ensure component agencies


1
    74 Federal Register 62201, Executive Order 13520, Reducing Improper Payments (November 20, 2009).

                                                                      AUDIT REPORT 50024-0002-11        1
appropriately consider cumulative payments and use a uniform process for identifying reportable
high-dollar overpayments.

Recommendation Summary

We recommended that the OCFO provide additional oversight to ensure component agencies
appropriately consider cumulative payments to a single individual or a single entity in their
processes for identifying reportable high-dollar overpayments. We also recommended that the
OCFO provide additional oversight to ensure component agencies consistently use the
appropriate formula to calculate the overpayment percentage in accordance with OMB and
OCFO guidance.

Agency Response

In its September 28, 2012, written response to the official draft report, OCFO expressed
agreement with all of our recommendations. OCFO will direct agencies to provide the
documented processes used in identifying cumulative high-dollar overpayments and in
calculating the overpayment percentage to OCFO for review and concurrence. Further, OCFO
will ask agencies for examples in the OCFO guidance where clarification is needed, and conduct
training on high-dollar reporting for agencies with high-risk programs.

OIG Position
We accept OCFO’s management decisions for all recommendations listed in this report.




2    AUDIT REPORT 50024-0002-11
Background and Objectives

Background
Executive Order 13520 (Executive Order) is intended to assist Federal agencies in reducing
improper payments.2 It provides a comprehensive set of policies and a focus on identifying and
eliminating the highest improper payments through increased transparency and improved agency
accountability. The Executive Order requires agencies to report quarterly on any high-dollar
overpayments identified in their high-risk programs.

As of fiscal year 2011, USDA had 16 high-risk programs subject to the Executive Order’s high-
dollar overpayment reporting requirements.3 As listed in exhibit A, seven USDA component
agencies administer these programs. Of the 16 programs, 9 reported high-dollar overpayments
for fiscal year 2011. Exhibit B lists the sum of high-dollar overpayments for each applicable
program and the number of payments the four relevant agencies made.

The Secretary of Agriculture has delegated the OCFO as the office within USDA responsible for
coordinating and submitting USDA’s high-dollar overpayments report. To assist OCFO in
meeting reporting requirements, the seven component agencies administering USDA’s high-risk
programs must submit high-dollar overpayments data in accordance with OMB guidance for
inclusion in the Department-level quarterly reports.

Objectives
As required by the Executive Order, we reviewed USDA’s quarterly reports on high-dollar
overpayments. The objective of our audit was to assess the level of risk associated with the
applicable programs, determine the extent of oversight warranted, and provide the Secretary of
Agriculture with recommendations, if any, for modifying USDA’s recovery and corrective action
plans. During our review, we recognized that USDA continued to lack adequate processes for
identifying and reporting applicable high-dollar overpayments, which we noted in our 2010
report.4 Therefore, we redirected our review to determine areas where USDA needed to
improve the completeness, accuracy, and timeliness of its reporting, which will help strengthen
USDA’s identification of root causes and development of corrective actions for preventing
high-dollar overpayments.




2
  74 Federal Register 62201, Executive Order 13520, Reducing Improper Payments (November 20, 2009).
3
  A high-risk program is any program susceptible to significant improper payments based on the criteria outlined in
OMB Circular A-123, Parts I and II, Appendix C (April 14, 2011).
4
  Audit Report 50024-1-FM, Calendar Year 2010 Executive Order 13520, Reducing Improper Payments, High
Dollar Report Review (July 15, 2011).

                                                                         AUDIT REPORT 50024-0002-11               3
Section 1: Compliance with High-Dollar Overpayments Reporting
Requirements

Finding 1: Further Actions Are Needed To Identify and Report High-Dollar
Overpayments
USDA’s high-dollar reporting is not yet fully advancing transparency and agency accountability
for identifying and eliminating the highest payment errors as intended. In this second year of
reporting, USDA increased its reporting of high-dollar overpayments by more than 500
percent—from 19 in the previous year to 143 for fiscal year 2011. However, we found that
USDA’s fiscal year 2011 quarterly reports did not always completely, accurately, and timely
account for high-dollar overpayments, recoveries, and preventative actions. Each of the
reports either omitted reportable overpayments or included incorrect information on
overpayments, or both. Further, the Department submitted none of its four quarterly reports on
time. This occurred because the component agencies required to submit data for the
Department-level reports did not always interpret and apply available guidance correctly, or have
formal processes in place for identifying and reporting high-dollar overpayments. Without
complete, accurate, and timely reporting, neither the Department nor OMB can measure the
effectiveness of USDA component agencies’ actions or strategies to eliminate the errors causing
high-dollar overpayments.

OMB implementing guidance for Executive Order 13520 defines a reportable high-dollar
overpayment as any overpayment in excess of 50 percent of the correct amount of the intended
payment if:
   · An agency paid an individual more than $5,000 in total as a single payment or in
       cumulative payments for the quarter.
   · An agency paid an entity more than $25,000 in total as a single payment or in cumulative
       payments for the quarter.
OMB requires that the quarterly reports:
  · List all high-dollar overpayments the agency identified during the quarter.
  · Identify the program responsible for each overpayment listed, as well as the recipient
     type (individual or entity) and recipient’s location (City/county, State).
  · Include information on overall agency actions and strategies to recover and prevent the
     overpayments.
  · Be submitted to the Office of Inspector General within 30 days after the end of the
     quarter.
Our review disclosed that three USDA component agencies, the Natural Resources Conservation
Service (NRCS), Forest Service (FS), and Risk Management Agency (RMA), omitted qualifying
overpayments from reporting because they misapplied high-dollar reporting criteria; two
agencies, NRCS and Rural Development, may not have identified and reported all applicable
overpayments because they lacked effective procedures for capturing and reporting high-dollar
overpayments for part or all of the fiscal year; and NRCS submitted incorrect information about
overpayment amounts and corrective actions. Further, as in fiscal year 2010, the Department


4    AUDIT REPORT 50024-0002-11
continued to struggle with report timeliness and submitted none of its four quarterly reports on
time. The following sections provide further details:

        Three Agencies Misapplied High-Dollar Reporting Criteria

        NRCS, FS, and RMA misapplied OMB’s criteria for identifying reportable high-dollar
        overpayments and omitted overpayments qualifying as reportable from their agency
        submissions to OCFO for the Department-level quarterly reports. This occurred because
        the agencies misinterpreted, or deviated from, the requirements of OMB’s guidance. As
        a result, we found several errors in these agencies’ submissions.

        For instance, we found that NRCS omitted three reportable overpayments, totaling
        $34,319, because officials used an incorrect formula to apply the $5,000 and $25,000
        criterion for determining reportable overpayments. NRCS also omitted a $129,150
        recovered overpayment and explained the omission as an oversight. This was
        similar to an issue we noted for the Farm Service Agency in our 2010 report.5
        Although OMB guidance did not specifically state that overpayments recovered during
        the same quarter should be reported, it did require agencies to report any qualifying
        overpayments identified.

        In September 2011, OCFO issued Departmental guidance to agencies with further
        clarification regarding OMB’s criteria for identifying reportable high-dollar
        overpayments, including a specific formula for calculating the overpayment percentage
        and specific guidance on reporting recovered overpayments. NRCS used the correct
        formula to determine reportable overpayments for the fourth quarter of fiscal year 2011,
        and included those omitted overpayments, which we had identified, on the Department-
        level second quarter report of fiscal year 2012. Therefore, we are making no
        recommendations regarding NRCS’ misidentified overpayments.

        In another instance, we found that FS identified two separate improper payments made to
        the same recipient during the same quarter in the amounts of $6,224, and $1,821. Both
        overpayments were over 50 percent of the correct amount. In accordance with quarterly
        reporting guidance, these payments should have been reported cumulatively in the
        amount of $8,045.6 Since one of the payments fell below the individual payment
        threshold of $5,000, it was not reported at all. We brought this to the attention of FS
        officials, who obtained clarification from OCFO regarding reporting requirements.
        OCFO agreed with our conclusion on cumulative payments. Thus, FS needs to modify
        its processes for identifying reportable high-dollar overpayments so that cumulative
        payments to a single individual or a single entity are appropriately considered.

        Finally, we found an instance where RMA did not report $1.7 million in cumulative
        overpayments to a single entity, meeting both the 50 percent and $25,000 criterion to
        qualify as reportable for the quarter. RMA did not identify and report the cumulative

5
  Audit Report 50024-1-FM, Calendar Year 2010 Executive Order 13520, Reducing Improper Payments, High
Dollar Report Review (July 15, 2011).
6
  We derived $8,045 by adding the two improper payment amounts of $6,224 and $1,821.

                                                                   AUDIT REPORT 50024-0002-11           5
        overpayments because RMA tracked overpayments by policy number instead of by a
        single entity. We also found that RMA used an incorrect formula to determine
        reportable high-dollar overpayments, thereby possibly understating its reportable
        high-dollar overpayments.7 Due to the formula error, overpayments that should have
        been classified as high-dollar may have been omitted from RMA’s quarterly submissions
        to OCFO. Thus, RMA needs to modify its processes for identifying reportable
        high-dollar overpayments so that cumulative payments to a single entity are
        appropriately considered, and correct its formula to comply with OMB and OCFO
        identification guidance.

        Two Agencies Lacked Processes for Identifying High-Dollar Overpayments

        NRCS and Rural Development did not have formal processes in place for capturing and
        reporting high-dollar overpayments for the first two quarters and for the entire year,
        respectively. As reported in Audit Report 10024-0001-11, NRCS had been working to
        develop a process, but did not have it in place when the Executive Order took effect.8
        Rural Development, however, had not developed a process because officials believed the
        nature of program payments would not result in high-dollar overpayments. As a result,
        NRCS and Rural Development management did not know the extent of high-dollar
        overpayments and actions needed to recover and prevent the overpayments.

        After initial discussions with Rural Development officials, we determined that
        Rural Development had not established a process for identifying and reporting high-
        dollar overpayments because they considered the payments on behalf of individual
        participants were below the $5,000 and $25,000 criteria for determining reportable
        overpayments. However, we found that most of Rural Development payments are made
        to an entity or one individual on behalf of multiple program participants, which may
        result in high-dollar overpayments. Therefore, with concurrence from Rural
        Development and OCFO, we concluded that Rural Development should establish a
        process for identifying potential high-dollar overpayments to individuals and entities.

        For the third quarter of fiscal year 2011 and the third quarter of fiscal year 2012,
        respectively, NRCS and Rural Development began reporting high-dollar overpayments
        to OCFO for the Department-level quarterly reports.9 They identified the overpayments
        through processes they implemented for examining and utilizing relevant sources of
        information available to them. Accordingly, we are making no recommendations on
        this issue.

7
  OMB implementing guidance defines a reportable high-dollar overpayment as any overpayment in excess of
50 percent of the correct amount of the intended payment. The correct formula for calculating the overpayment
percentage is overpayment amount divided by intended (or correct) payment amount times 100. RMA incorrectly
divided the overpayment amount by the total payment made times 100, which resulted in a lower percentage.
8
  Audit Report 10024-0001-11, Fiscal Year 2011 Natural Resources Conservation Service Improper Payment
Review (May 18, 2012).
9
  As reported in Audit Report 10024-0001-11, NRCS did report $2.1 million in high-dollar overpayments for the
second quarter of fiscal year 2011. The overpayments reported were identified in our OIG Audit Report 10601-
0004-KC, Natural Resources Conservation Service Conservation Security Program (June 25, 2009), and we noted
that NRCS did not identify any additional overpayments on its own.

6     AUDIT REPORT 50024-0002-11
        One Agency Submitted Incorrect Overpayment Amounts and Corrective Actions

        Our review disclosed that NRCS sometimes submitted incorrect information on
        overpayment amounts, recoveries, and preventative actions to OCFO for the Department-
        level quarterly reports on high-dollar overpayments. Specifically, NRCS incorrectly:

             ·   Reported two overpayments of $5,040 and $6,445 that did not need reporting
                 because they did not meet the 50-percent criterion.
             ·   Reported $21,259 in liquidated damages assessed for two terminated contracts,
                 although liquidated damages are not considered improper payments.
             ·   Reported $61,664, instead of $81,168, as an identified overpayment because they
                 omitted $19,504 in funds already recovered.
             ·   Reported a $5,765 overpayment as recovered when no such action occurred.
             ·   Reported a reason and preventative actions for an overpayment that did not
                 address the actual cause of the overpayment.10

        This occurred because NRCS misinterpreted the requirements from OMB’s guidance or
        NRCS internal reviews missed these errors. As reported in Audit Report 10024-0001-11,
        NRCS had resource limitations in its Quality Assurance Division.11 However, we are
        making no recommendations for these issues because, in September 2011, OCFO issued
        adequate Departmental guidance to its component agencies, which provided further
        clarification on terms, payments, corrective actions, and specific instances for the
        reporting of high-dollar overpayments. Also, as reported in Audit Report 10024-0001-
        11, NRCS identified that it added staff to the Quality Assurance Division to facilitate
        improvements in its review processes.

        USDA Continued To Struggle with Report Timeliness

        As in fiscal year 2010, the Department did not timely submit the quarterly reports on
        high-dollar overpayments for fiscal year 2011. OMB permitted Federal agencies up to
        30 days after the end of the quarter to submit the reports to their respective OIG. We
        received the reports from 23 to 99 days after the required due date, specifically, 23 days
        for the first quarter, 44 days for the second, 99 days for the third, and 29 days for the
        fourth. This occurred, in part, because the Department and its component agencies did
        not have adequate identification, review, and compilation processes in place throughout
        the entire fiscal year. We emphasize that untimely reporting may lessen transparency and


10
   NRCS reported that an overpayment was made because a practice was not performed in accordance with the
contract. To prevent similar overpayments from occurring, NRCS stated that it would reiterate existing policy to
field offices on certification of activities and adequate supporting documentation. However, we found that the
practice was performed correctly, but it overlapped with land associated with another NRCS program, which
requires approval before execution. We determined that the root cause was NRCS’ failure to identify the overlap of
land units submitted for both programs; an appropriate corrective action could include training personnel on
verifying program participation information.
11
   Audit Report 10024-0001-11, Fiscal Year 2011 Natural Resources Conservation Service Improper Payment
Review (May 18, 2012).

                                                                        AUDIT REPORT 50024-0002-11               7
       delay accountability for identifying and eliminating high-dollar payment errors. For
       fiscal year 2012, OCFO issued departmental guidance establishing report certification
       requirements and modified submission due dates for the component agencies to assist
       with timely reporting; therefore, we are making no recommendations at this time.

Overall, we conclude that to further improve established processes, OCFO needs to emphasize
the requirements of the Executive Order, OMB guidance, and the Department’s supplemental
guidance to all its component agencies with high-risk programs to ensure that high-dollar
overpayments are appropriately and consistently identified and reported. By taking these steps,
USDA can more accurately and comprehensively measure the effectiveness of USDA’s efforts to
eliminate the errors causing high-dollar overpayments.

Recommendation 1
Provide additional oversight to ensure component agencies appropriately consider cumulative
payments to a single individual or a single entity in their processes for identifying reportable
high-dollar overpayments.

Agency Response
OCFO officials concurred with this recommendation and stated that the OCFO will direct
agencies to provide documented processes for identifying and reporting cumulative high-dollar
overpayments to OCFO for review and concurrence. Further, OCFO will ask agencies for
examples in the OCFO guidance where clarification is needed and conduct training on high-
dollar reporting for agencies with high risk programs. OCFO plans to complete all actions by
March 29, 2013.

OIG Position
We accept OCFO’s management decision.

Recommendation 2
Provide additional oversight to ensure component agencies consistently use the appropriate
formula to calculate the overpayment percentage in accordance with OMB and OCFO guidance.

Agency Response
OCFO officials concurred with this recommendation and stated that the OCFO will direct
agencies to provide the overpayment percentage formula used in identifying high-dollar
overpayments for reporting to OCFO for review and concurrence. Further, OCFO training for
agencies with high risk programs will include instruction on the proper calculation of the
overpayment percentage. OCFO plans to complete all actions by March 29, 2013.




8    AUDIT REPORT 50024-0002-11
OIG Position
We accept OCFO’s management decision.




                                        AUDIT REPORT 50024-0002-11   9
Scope and Methodology
Our review was for the limited purpose described in the objectives and would not necessarily
identify all deficiencies in internal controls for determining high-dollar overpayments. We
reviewed USDA’s fiscal year 2011 quarterly reports on high-dollar overpayments. To
accomplish our objectives, we met with OCFO officials in Washington, D.C., and held
teleconferences with officials from the 7 component agencies administering the 16 high-risk
programs responsible for reporting high-dollar overpayments. We interviewed these officials
and evaluated supporting documentation provided by them. Fieldwork for this review was
performed between November 2011 and July 2012. We followed applicable generally accepted
government auditing standards in performing this review, and we believe the evidence obtained
provides a reasonable basis for our conclusions, based on our objectives.




10     AUDIT REPORT 50024-0002-11
Abbreviations
FS ................................ Forest Service
NRCS .......................... Natural Resources Conservation Service
OCFO .......................... Office of the Chief Financial Officer
OIG ............................. Office of Inspector General
OMB ........................... Office of Management and Budget
RMA ........................... Risk Management Agency
USDA.......................... Department of Agriculture




                                                                    AUDIT REPORT 50024-0002-11   11
  Exhibit A: USDA's 16 Programs Susceptible to Significant
  Improper Payments
  Exhibit A provides a list of USDA’s 16 current high-risk programs.
                                                                                                      USDA
                                   High-Risk Program
                                                                                                  Component Agency
1. Supplemental Nutrition Assistance Program (SNAP)
   SNAP provides low income families benefits to purchase food from approved retailers.
2. National School Lunch Program (NSLP)
   NSLP provides cash subsidies and donated foods from USDA for each meal schools serve.
3. School Breakfast Program (SBP)
   SBP is a federally assisted meal program where participating school districts receive cash
   subsidies for each breakfast they serve.                                                        Food and Nutrition
4. Child and Adult Care Food Program (CACFP)                                                         Service (FNS)
   CACFP provides nutritious meals to participants in day care facilities, such as child care
   centers, day care homes, and adult day care centers.
5. Special Supplemental Nutrition Program for Women, Infants, and Children
   (WIC)
   WIC provides supplemental foods and other health services to low-income participating
   women and children up to the age of 5 years.
6. Federal Crop Insurance Corporation (FCIC) Program Fund                                          Risk Management
   FCIC provides insurance and risk management strategies to American producers.                    Agency (RMA)
7. Milk Income Loss Contract Program (MILC)
   MILC compensates dairy producers when domestic milk prices fall below a specified level.
8. Loan Deficiency Payments (LDP)
   LDP is available to eligible participants who do not want to participate in the MAL program.
9. Direct and Counter-Cyclical Payments (DCP)
   DCP provides payments based on yields and market prices to eligible producers on farms.
10. Conservation Reserve Program (CRP)                                                               Farm Service
   CRP is a voluntary program available to agricultural producers to help them use                   Agency (FSA)
   environmentally sensitive land for conservation benefits.
11. Miscellaneous Disaster Programs (MDP)
   MDP provides assistance through various programs to participants when there are disasters.
12. Noninsured Assistance Program (NAP)
   NAP provides financial assistance to producers of noninsurable crops when low yields, loss
   of inventory or prevented planting occur due to a natural disaster.
13. Marketing Assistance Loan Program (MAL)                                                       FSA and Commodity
   MAL provides an influx of cash when market prices are low, which allows the producer to         Credit Corporation
   delay the sale of the commodity until more favorable market conditions emerge.
                                                                                                         (CCC)
14. Rental Assistance Program (RAP)
   RAP provides an additional source of support for households in rural areas with income too     Rural Development
   low to pay the basic rent from their own resources.
15. Farm Security and Rural Investment Act programs (FSRI)                                         Natural Resources
   FSRI programs provide products and services that enable people to be good stewards of the      Conservation Service
   Nation’s soil, water, and related natural resources on non-Federal lands.                           (NRCS)
16. Wildland Fire Suppression Management (WFSM)
   WFSM protects life, property, and natural resources on acres of National Forest System and     Forest Service (FS)
   State and private lands through fee or reciprocal protection agreements.

  12       AUDIT REPORT 50024-0002-11
     Exhibit B: Summary of USDA's Reported Fiscal Year 2011 High-
     Dollar Overpayments
     Exhibit B lists the number and sum of high-dollar overpayments made in fiscal year 2011 by 9 of
     the 16 high-risk programs.

                                                                      Number of      Sum of
                                                                       Reported     Reported
        USDA Agency                   High-Risk Program
                                                                      High-Dollar  High-Dollar
                                                                     Overpayments Overpayments

                               Wildland Fire Suppression
1.     Forest Service                                                        2         $      121,466
                               Management Program


2.     Farm Service Agency Conservation Reserve Program                      6         $       73,559


                               Direct and Counter-Cyclical
3.     Farm Service Agency                                                   9         $      182,454
                               Payments

                               Marketing Assistance Loan
4.     Farm Service Agency                                                   7         $      646,448
                               Program

                               Milk Income Loss Contract
5.     Farm Service Agency                                                   6         $      143,669
                               Program


6.     Farm Service Agency Miscellaneous Disaster Programs                   9         $      152,586


7.     Farm Service Agency Noninsured Assistance Program                    10         $      161,621


       Natural Resources       Farm Security and Rural Investment
8.                                                                          45         $    3,118,332
       Conservation Service    Program

       Risk Management         Federal Crop Insurance Corporation
9.                                                                          49         $    7,079,494
       Agency                  Program Fund


                                                             Total         143         $   11,679,629




                                                               AUDIT REPORT 50024-0002-11        13
14   AUDIT REPORT 50024-0002-11
Agency’s Response




                  USDA’S
            OFFICE OF THE CHIEF
            FINANCIAL OFFICER'S
         RESPONSE TO AUDIT REPORT




                        AUDIT REPORT 50024-0002-11   15
United States
Department of
Agriculture

Office of the Chief
Financial Officer

1400 Independence                                                                        September 28, 2012
Avenue, SW

Washington, D.C.
20250
                      TO:           Tracy A. LaPoint
                                    Deputy Assistant Inspector General
                                     for Audit

                      FROM:         Jon M. Holladay                                      -S- Jon M. Holladay
                                    Deputy Chief Financial Officer

                      SUBJECT:      Management Response to Executive Order 13520, Reducing Improper Payments-
                                    Fiscal Year 2011 High-Dollar Report Review, Audit No. 50024-0002-11


                      This responds to your request for management’s response to the draft report audit
                      recommendations in Audit Report No. 50024-0002-11. The management response
                      is attached.

                      If you have any questions or need additional information, please contact our office at
                      (202) 720-5539 or have a member of your staff contact Kathy Donaldson at
                      (202) 720-1893.

                      Attachment




                                                 An Equal Opportunity Provider and Employer
             Fiscal Year 2011 High-Dollar Report, Audit No. 50024-0002-11


Recommendation 1

Provide additional oversight to ensure component agencies appropriately consider
cumulative payments to a single individual or a single entity in their processes for identifying
reportable high-dollar overpayments.

Management Response: The Office of the Chief Financial Officer (OCFO) concurs with the
Office of Inspector General’s (OIG) finding that agencies misinterpreted or deviated from the
requirement of the Office of Management and Budget (OMB) and OCFO guidance which
resulted in omission and/or errors in agencies submissions.

OCFO will ask agencies for examples in the OCFO guidance that need further clarification and
revise language in the OCFO guidance concerning cumulative overpayments.

OCFO will direct agencies to develop and document their process for identifying and
reporting high-dollar overpayments; and provide the documented process to OCFO for review
and concurrence.

Date Corrective Action will be Completed: December 31, 2012

OCFO will conduct a training session for agencies with high risk programs covering the OMB
and OCFO guidance for identifying and reporting high-dollar overpayments.

Date Corrective Action will be Completed: March 29, 2013

Responsible Organization: Fiscal Policy Division, Office of the Chief Financial Officer

Recommendation 2

Provide additional oversight to ensure component agencies consistently use the appropriate
formula to calculate the overpayment percentage in accordance with OMB and OCFO
guidance.

Management Response: OCFO concurs with OIG’s finding that agencies misinterpreted, or
deviated from the requirement of the OMB and OCFO guidance which resulted in
miscalculation of overpayments percentage that resulted in reporting errors.

OCFO will direct agencies to develop and document their process for identifying and
reporting high-dollar overpayments; particularly the formula used and provide the
documented process to OCFO for review and concurrence.

Date Corrective Action will be Completed: December 31, 2012




                                    An Equal Opportunity Provider and Employer
                 Executive Order 13520, Reducing Improper Payments,
             Fiscal Year 2011 High-Dollar Report, Audit No. 50024-0002-11


OCFO will conduct a training session for agencies with high risk programs covering the OMB
and OCFO guidance for identifying and reporting high-dollar overpayments. Training will
include instruction on how to properly calculate the overpayment percentage.

Date Corrective Action will be Completed: March 29, 2013

Responsible Organization: Fiscal Policy Division, Office of the Chief Financial Officer
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm

How To Report Suspected Wrongdoing in USDA Programs
Fraud, Waste, and Abuse
Email: usda.hotline@oig.usda.gov
Phone: 800-424-9121 Fax: 202-690-2474
Bribes or Gratuities:
202-720-7257 (24 hours a day)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
